December 7, 1999


CLARENCE E. LEWIS, JR.
CHIEF OPERATING OFFICER
 AND EXECUTIVE VICE PRESIDENT

SUBJECT:	 Year 2000 Business Continuity and Contingency Planning:
          Day One Strategy (Report Number TR-AR-00-002)

This audit report presents the results of the Office of Inspector General’s third and final
review of the United States Postal Service’s Year 2000 (Y2K) Business Continuity and
Contingency Planning Initiative (Project Number 00PA017TR000). During this review,
we noted that the Postal Service generally established an effective infrastructure and
process to communicate, react to, and track resolution of potential Year 2000 failures.
The Postal Service also developed a complete Day One strategy to position itself to
readily identify Y2K problems and take needed corrective actions. Management agreed
with our recommendations and has initiatives in progress or planned addressing the
issues in this report. Management’s comments and our evaluation of these responses
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact              ,               at (               or
me at (703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment

cc:	 Norman E. Lorentz
     Nicholas F. Barranca
     Richard Weirich
     Sylvester Black
     Jim Golden
     John R. Gunnels
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy


                                     TABLE OF CONTENTS

Part I
Executive Summary
                                                                         i


Part II

Introduction
   Background                                                                             1

   Objective, Scope, and Methodology                                                      1

   Prior Audit Coverage                                                                   2



Audit Results
   Infrastructure and Processes                                                           3

   Recommendations                                                                        5

   Management’s Comments                                                                  5

   Evaluation of Management’s Comments                                                    5

   Day One Strategy                                                                       6



Appendices
Appendix A. Prior Inspector General Year 2000 Reports                                     7


Appendix B. Management’s Comments                                                         10





                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                                    TR-AR-00-002
 Day One Strategy


                                             EXECUTIVE SUMMARY

Introduction                         This is the Office of Inspector General’s third report on the
                                     United States Postal Service’s business continuity and
                                     contingency planning efforts, and one of a series of reports1
                                     regarding the Postal Service Year 2000 (Y2K) Initiative.
                                     This report addresses the Postal Service’s (1) infrastructure
                                     and processes for communicating and reacting to Y2K
                                     disruptions, and (2) Day One strategy for managing the
                                     rollover period.

Results in Brief                     The Postal Service has generally established an effective
                                     infrastructure and process to communicate, react to, and
                                     track resolution of potential Y2K failures. In accordance
                                     with the General Accounting Office (GAO) planning
                                     guidance, the Postal Service has dedicated sufficient
                                     resources and staff for Day One activities, adequately
                                     identified rollover risks, developed a Day One strategy,
                                     documented rehearsal plans, and established a process for
                                     executing rollover procedures and tests.

                                     Although the Postal Service has dedicated resources for
                                     Day One activities, it needs to further define the critical staff
                                     needed during the rollover period. If this is not done, key
                                     technical staff may not be available to handle rollover
                                     events. Further, while the Postal Service has documented
                                     its plans, it has yet to complete rehearsal of its Day One
                                     strategy. Moreover, any schedule slippage will affect the
                                     Postal Service’s ability to update and revise the Day One
                                     strategy based on lessons learned.

                                     According to the Office of Management and Budget, the
                                     Postal Service’s Day One strategy meets the requirements
                                     it has established for federal agency plans. We agree with
                                     the Office of Management and Budget’s assessment, and
                                     believe the Postal Service's Day One strategy should help it
                                     effectively manage risks associated with the rollover period.

Summary of 	                         We recommend that the chief operating officer and
Recommendations	                     executive vice president monitor Day One activities to
                                     ensure that critical employees mentioned in the staffing plan
                                     will be available during the rollover period and that all Day
                                     One activities are completed as scheduled.


1
    See Appendix A for a list of these reports.

                                                           i
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                                 Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy


Summary of                    Management agreed with our findings and
Management’s                  recommendations. We have summarized management’s
Comments                      comments in the report and included the full text of their
                              comments in Appendix B.

Overall Evaluation of         Management’s comments are responsive to our findings
Management’s                  and recommendations. Planned or on-going actions should
Comments                      further mitigate the risk of potential Y2K disruptions.




                                                    ii
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                                                 TR-AR-00-002
 Day One Strategy


                                                 INTRODUCTION

    Background	                      A Day One strategy comprises a comprehensive set of
                                     actions to be executed during the last days of 1999 and the
                                     first days of 2000. It must be integrated with agency
                                     business continuity and contingency plans, and should
                                     describe the key activities and responsibilities of agency
                                     component organizations and staff.




                                     The objectives of a Day One strategy are to: (1) position
                                     an organization to readily identify Year 2000-induced
                                     problems, take needed corrective actions, and minimize
                                     adverse impact on agency operations and business
                                     processes; and (2) provide information about an
                                     organization's Y2K condition to executive management,
                                     business partners, and the public.

    Objective, Scope, and            Our objectives were to assess the Postal Service's: (1)
    Methodology                      infrastructure and processes for communicating and
                                     reacting to Y2K disruptions, and (2) Day One strategy for
                                     managing the rollover period.

                                     To address our first objective, we compared the Postal
                                     Service's infrastructure and processes to the GAO Day
                                     One Planning and Operations Guide.2 This guide
                                     provides a structured approach to aid federal agencies in
                                     Day One planning. To evaluate the completeness of the
                                     Postal Service's Day One strategy, we compared its
                                     strategy to the Office of Management and Budget’s
                                     requirements for Day One planning.3


2
 Year 2000 Computing Challenge: Day One Planning and Operations Guide (GAO/AIMD-10.1.22, October 1999).
3
 In its September 1999 quarterly report, the Office of Management and Budget required agencies to submit Day One
strategies by October 15, 1999. The Office of Management and Budget subsequently asked agencies to address
seven elements in their plans: (1) a schedule of acti vities, (2) personnel on call or on duty, (3) contractor availability,
(4) communications with the workforce, (5) facilities and services to support the workforce, (6) security, and (7)
communications with the public.


                                                        1
                        This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                               Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                                   TR-AR-00-002
 Day One Strategy


                                       Additionally, we attended Day One strategy meetings,
                                       reviewed related planning documents, interviewed postal
                                       officials responsible for planning, and observed Day One
                                       rehearsals.

                                       This audit was conducted from October 1999 through
                                       November 1999 in accordance with generally accepted
                                       government auditing standards and included tests of
                                       internal controls as were considered necessary under the
                                       circumstances. We discussed our findings with appropriate
                                       management officials and included their comments, where
                                       appropriate.

    Prior Audit Coverage               During our continuing coverage of the Postal Service Year
                                       2000 Initiative, we issued a series of reports4 covering
                                       remediation, validation, reporting quality, budgeting,
                                       contracting, and business continuity planning. In our
                                       previous audits of business contingency and continuity
                                       planning, we noted several areas where management
                                       needed to strengthen its strategy, business impact
                                       analysis, plan development, and testing. Management was
                                       responsive to our six recommendations to strengthen its
                                       strategy and business impacts and our five
                                       recommendations to further strengthen its business
                                       continuity and contingency plans and testing efforts.




4
    See Appendix A for a listing of reports.


                                                          2
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                                 Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy


                                         AUDIT RESULTS

Infrastructure and            Day One strategies are necessary to reduce the risk to
Processes                     facilities, systems, programs, and services during the
                              weekend of the critical rollover period. According to
                              guidance provided by the GAO, effective Day One planning
                              comprises the following four phases supported by executive
                              oversight:




                              Our review disclosed that the Postal Service generally has
                              an effective infrastructure and process to communicate,
                              react to, and track resolution of potential Y2K disruptions.
                              Postal executives have dedicated sufficient resources and
                              staff for this task and have ensured that senior managers
                              support this effort. The Postal Service has established a
                              Day One team that reports to executive management and
                              works closely with the business continuity and contingency
                              planning group. The agency has also documented a high
                              level Day One planning strategy and established a schedule
                              and milestones for the planning effort.

                              Under its business continuity and contingency initiatives, the
                              Postal Service identified high-risk areas, including facilities,
                              critical infrastructure components, and systems supporting


                                                    3
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy


                              core business processes that should be addressed by the
                              Day One plan. The Postal Service has also established
                              command centers to coordinate and report on agency-wide
                              rollover activities. Further, it has developed plans for both
                              internal and external communications and a process for
                              monitoring external events, including communications with
                              the President’s Council on Year 2000 Conversion’s
                              Information Coordination Center. However, although the
                              Postal Service has adequately addressed the rollover risk
                              requirements, it needs to further define the critical staff to
                              execute Day One activities. Because the Postal Service
                              has yet to reconcile its staffing plan to employee leave
                              schedules, employees identified in staffing plans may have
                              scheduled leave during the rollover period. If this does not
                              happen, key technical staff may not be available to handle
                              rollover events.

                              With respect to rehearsals, the Postal Service has planned
                              a web-based exercise to ensure that the Day One strategy
                              is executable. This exercise will serve as a mechanism for
                              making sure that field organizations are aware of both
                              contingency and continuity plans, know how to access
                              information from the plans, and are prepared to properly
                              react to potential problems. However, while the Postal
                              Service has documented its plans, it has yet to complete
                              rehearsal of its Day One strategy. Any schedule slippage
                              will affect the Postal Service’s ability to update and revise
                              the Day One strategy based on lessons learned.

                              Finally, the Postal Service has taken steps to ensure it can
                              execute rollover procedures and tests. More specifically,
                              the Postal Service has:

                              •	 Established command centers and designated Day One
                                 sites.
                              •	 Developed operational inspections and readiness
                                 checks.
                              •	 Established a schedule to implement planned risk
                                 prevention and reduction measures.
                              •	 Developed a process to generally address post-rollover
                                 events or disruptions.




                                                    4
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy



                              These actions should facilitate the gathering of information
                              on the status of mission critical systems and the viability of
                              the agency’s core business processes.

Recommendations	              We recommend that the chief operating officer and
                              executive vice president monitor Day One activities to
                              ensure that:

                              1. Employees critical to implementing the Day One strategy
                                 will be available during rollover.

                              2. All Day One activities are completed as scheduled.

Management’s                  Management agreed with our findings and
Comments                      recommendations to ensure that critical employees
                              mentioned in the staffing plan will be available during the
                              rollover period and that all Day One activities are completed
                              as scheduled. They stated that detailed “Day One”
                              schedules have been developed for the National Operations
                              Center, the Area Postal Operations Centers, the Information
                              Systems Command and Control Center, the Engineering
                              Command Center, the Inspection Service Command
                              Center, as well as Network Operations Management,
                              Communications, and Business Service Network. In
                              addition, two internal oversight bodies will oversee project
                              completion as scheduled.

Evaluation of                 Management’s comments are responsive to our findings
Management’s                  and recommendations. Planned or on-going actions should
Comments                      further mitigate the risk of potential Y2K disruptions.




                                                    5
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy



 Day One Strategy	             The Postal Service’s Day One strategy contained all seven
                               elements required by the Office of Management and
                               Budget: (1) a schedule of activities, (2) personnel on call or
                               on duty, (3) contractor availability, (4) communications with
                               the workforce, (5) facilities and services to support the
                               workforce, (6) security, and (7) communications with the
                               public. According to the Office of Management and Budget,
                               the Postal Service Day One strategy was a very thorough
                               and well thought-out plan. For example, the Postal
                               Service’s risk management and prioritization was
                               appropriate, and the extent of disruption to the supply chain
                               and potential changes in mail volume and compositions
                               were taken into account. Further, the Postal Service has
                               assigned responsibility for providing information on status
                               and any recovery or response activities to employees,
                               contractors, customers, and public, as necessary.

                               We agree with the Office of Management and Budget’s
                               assessment of the Postal Service’s Day One strategy.
                               As a result, we believe the Postal Service's strategy should
                               help it effectively manage risks associated with the rollover
                               period and better position itself to address any disruptions
                               that may occur.




                                                    6
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy



                                   APPENDIX A
                      PRIOR INSPECTOR GENERAL Y2K REPORTS

The Office of Inspector General and GAO established a joint partnership in the fall of
1998 to work on Y2K issues which led to February 1999 testimony before three House
subcommittees. The Inspector General’s (IG) testimony on the Postal Service Year
2000 Initiative (Report No. IS -TR-99-001 dated February 23, 1999), addressed major
challenges facing the Postal Service. These included: developing and implementing a
business continuity and contingency plan; determining whether external suppliers and
Postal facilities are Y2K ready; deploying solutions and testing mail processing
equipment; and reviewing, correcting, and testing information systems, data exchanges,
information technology infrastructure. The GAO delivered testimony entitled “Year 2000
Computing Crisis: Challenges Still Facing the U.S. Postal Service” (GAO/T-AMID-99-86,
dated February 23, 1999) which addressed Y2K operational issues similar to those
presented in the IG testimony.

In December 1999, we issued two Y2K reports. The first report is entitled “Year 2000
Initiative: Status of Postal Service Year 2000 Readiness” (Report Number IS -AR-00-
002, dated December 3, 1999). In that report we provided the September 1999 status
of Postal Service Y2K initiatives relating to the readiness of information systems, data
exchanges, contingency plans, mail processing equipment, suppliers, facilities,
business continuity plans and testing.

The second report entitled “Year 2000 Business Contingency and Continuity Planning:
Plan Development and Testing” (Report No. TR-AR-00-001 dated December 3, 1999)
noted that it may not be practical to refine all contingency and continuity plans by the
end of the year, but the Postal Service should concentrate on those of highest impact to
its operations. We recommended that the Postal Service expand testing to those areas
where plans are not fully developed. We also recommended management ensure that
proposed quality assurance steps be taken to ensure that plans are adequately
integrated with other supporting plans and organizational initiatives, and are properly
tested. In short, comprehensive plans for all severe or critical systems and for all high­
impact failure scenarios should be pursued.

In November 1999, we issued a Y2K report entitled “Year 2000 Initiative: Suppliers,
Mail Processing Equipment, Facilities, and Embedded Chips” (Report No. IS -AR-00-001
dated November 30, 1999) noted the Postal Service needed to place more emphasis on
the issue of alternative supplier arrangements. Specifically, we recommended that the
Postal Service needed to develop supplier contingency plans and establish a no-later-
than date when it will look to these alternative suppliers to take over for its at-risk critical
suppliers, i.e., suppliers who may not be Y2K ready or who have already reported their
inability to become Y2K ready. We also recommended that the Postal Service closely
monitor and spot check mail processing equipment software deployment actions in the
field to ensure installation of the proper, Y2K compliant software.


                                                    7
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy



In September 1999, we issued a Y2K report entitled “Year 2000 Business Continuity
and Contingency Planning: Initiation and Business Impacts” (Report Number TR-AR-99-
002, dated September 29, 1999). This report addressed the overall progress the Postal
Service made, the effectiveness of the management structure and strategy for business
continuity planning, and the adequacy of the Postal Service’s assessment of the
potential business impacts resulting from Y2K disruptions. We made several
recommendations, which will help the Postal Service strengthen its strategy for reducing
potential Y2K disruptions.

In September 1999, we issued a Y2K report entitled “Year 2000 Initiative Review of
Administration: Status Report on Postal Service Year 2000 Readiness” (Report Number
IS-AR-99-002, dated September 20, 1999). In that report we provided the May 1999
status of Postal Service Y2K initiatives relating to the readiness of information systems,
data exchanges, contingency plans, mail processing equipment, suppliers, facilities,
business continuity plans and testing. We noted that the Postal Service had made
varying levels of progress in the area of component contingency plans and limited
progress in the areas of facilities, business continuity plans and recovery management
planning, external suppliers and information systems readiness testing. We reported
that the Postal Service is actively engaged in accomplishing these Y2K tasks.

In July 1999, we issued a Y2K report entitled "Year 2000 Initiative: Review of
Administration Management" (Management Advisory Report No. FR-MA-99-002, dated
July 7, 1999). Among the more significant issues, we noted were that adequate
controls were not always in place to monitor contractor activities, information had not
always been provided to Integrated Business Systems Solutions Center personnel to
help in controlling Y2K resources, and work products provided by contractor personnel
were not always timely or adequate. We also noted issues with unnecessary layers of
contractor management, numbers or expertise of contractor personnel, security
clearances, and deviations from the Postal Service travel regulations granted to one
contractor. The Postal Service management concurred with seven of our eight
suggestions for opportunities to save resources.

In February 1999, we issued a Y2K report entitled “Year 2000 Initiative: Program
Management Reporting” (Report No. IS-AR-99-001, dated February 18, 1999) that
addressed quality and reliability of Y2K information reported to senior managers. We
found that Y2K briefings and reports to senior management were not always complete,
consistent, or clear. Y2K briefings did not include a standard report on the overall
status of Y2K progress and were not provided at regularly scheduled intervals. As a
result, senior managers were not always able to use the information to monitor Y2K
progress and make timely and informed decisions. The Postal Service management
concurred with our findings and recommendations.




                                                    8
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy



In September 1998, we issued a Y2K report entitled "Year 2000 Initiative: Post
Implementation Verification" (Report No. IS -AR-98-003, dated September 29, 1998),
that involved an assessment of the efficiency and effectiveness of the process
implemented as an independent check on the Postal service remediation efforts. This
report recommended the Postal Service modify its system certification and post
implementation verification procedures to improve the quality of systems sent to
verification as well as the process itself. The Postal Service management concurred
with our findings and recommendations.

In July 1998, we issued a Y2K report, entitled "Year 2000 Initiative: Status of the
Renovation, Validation, and Implementation Phases" (Report No. IS -AR-98-002, dated
July 21, 1998), that involved a preliminary assessment of the renovation, validation, and
implementation phases of the Postal Service Year 2000 Initiative. It contained
recommendations for improvement in several areas including accurately reporting the
compliance status of systems applications. The Postal Service’s management
concurred with our findings and recommendations.

Our first Y2K report entitled "Year 2000 Initiative" (Report No. IS -AR-98-001 dated
March 31, 1998) examined the awareness and assessment phases of the Postal
Service Y2K Initiative and made recommendations for improvement in several areas
including assigning accountability to responsible managers. The Postal Service’s
management concurred with our findings and recommendations.

We also issued a letter report, entitled "Y2K Contract Indemnification Advisory Letter"
(Report No. CA-LA-98-001, dated July 7, 1998). That letter addressed negotiations
between the Postal Service and a consulting firm regarding the Y2K program
management contract's indemnification clause. That letter contained suggestions to the
Postal Service’s management regarding the indemnification issue.




                                                    9
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy


                       APPENDIX B. MANAGEMENT’S COMMENTS





                                                   10
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy




                                                   11

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Year 2000 Business Continuity and Planning:                                             TR-AR-00-002
 Day One Strategy




 Major Contributors to
 This Report




                                                   12
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
